Nos. 20-6570 and 20A110
IN THE SUPREME COURT OF THE UNITED STATES
BRANDON BERNARD,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
** CAPITAL CASE **
EXECUTION IS SCHEDULED FOR THURSDAY, DEC. 10, 2020
AT 6:00 P.M. EASTERN TIME
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit
SECOND SUPPEMENT TO EMERGENCY APPLICATION
FOR STAY OF EXECUTION
Petitioner Brandon Bernard respectfully files this Second Supplement to his
pending Emergency Application for Stay of Execution, and in support whereof would
show this Court as follows:
1. In his Supplement to his Emergency Application, Petitioner advised the
Court that attorney ALAN DERSHOWITZ of Cambridge, Massachusetts,
Professor of Law at Harvard Law School, has volunteered to join Petitioner’s
counsel team before this Court, and requested a stay of FOURTEEN DAYS
to review the pleadings and make any additional filings.

1

2. Petitioner now advises the Court that attorney KEN STARR (Kenneth
Winston Starr), former Judge of the United States Court of Appeals for the
District of Columbia Circuit, and former Solicitor General of the United
States, has likewise joined Petitioner’s counsel team before this Court, and
like Professor Dershowitz requests that the Hon. Justice Samuel Alito, or
the full Court upon his referral, enter an administrative stay of execution to
allow him FOURTEEN DAYS to review the pleadings in this matter and,
if appropriate, supplement Petitioner’s pending Petition for Writ of
Certiorari to the United States Court of Appeals for the Fifth Circuit.
Respectfully submitted,

ROBERT C. OWEN, ESQ.
Counsel of Record
Member, Supreme Court Bar
Law Office of Robert C. Owen, LLC
53 W. Jackson Blvd., Ste. 1056
Chicago, Illinois 60604
Tel. (512) 577-8329
robowenlaw@gmail.com

2

